                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




TO:        0
FROM:

DATE:       August 18,1999
RE:         Referral of June 18, 1999




In response to your referral, I have reviewed the use of leave b              y (DASIOIRM)
while she participated in the Voluntary Leave Transfer Program. Absences relating to-
rn     medical condition spanned from 11/3/98 through 1/1/99, with several intermittent
absences through 1130199. During the 11/3/98 through 1/1/99 time period, s
timekeeper erroneously neglected to charge s             sick and annual leave accounts. I have
been informed that this error was corrected in May 1999.

Based on my r e v i e w , d i d not receive more donations that she could use and she had the
right to use all of the donations that she received. It is my understanding that the timekeeper .
involved has received more timekeeping training and the error of not documenting leave taken is
unlikely to occur again. At this point,, all parties seem pleased with the outcome and the case is
closed. If you need more information or have any questions, please feel free to contact me 'at
m
